Certificate of Compliance
No. 20Natalie McDaniel, petitioner
v.
Robert Wilkie, Secretary of Veterans Affairs

As required by Supreme Court Rule 33.1(h), I certify
that the petition for a writ of certiorari contains
8,658 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).
The petition for a writ of certiorari conforms with the
April 15, 2020 order of the Court.
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on September 9, 2020

Natalie McDaniel, Appearing pro se
2352 Demington Dr. Cleve. Hts. OH 44106
216-302-8320
SupremeBriefs@sttpovfer.com

